XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1515 CLAY STREET, 20TH FLOOR
P.O. BOX 70550
OAKLAND, CA 94612-0550

Public: (510) 879-1300
Telephone: (510) 879-0756
Facsimile: (510) 622-2270
E-Mail: Joshua.Klein@doj.ca.gov

September 1, 2020
By Electronic Filing
Hon. Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Trump v. Sierra Club; Trump v. State of California, No. 20-138

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 7, 2020. Responses
are currently due on September 8. On behalf of the State Respondents, California and New
Mexico, we respectfully request that the time in which the State Respondents must respond be
extended by eight days, to September 16. The extension is requested because we have received
notice that two amicus curiae briefs may be filed in this matter on or around September 8. The
extension will allow us an opportunity to respond to arguments in those briefs, and to better
assist the Court in its analysis of the issues in this case. No previous extensions have been
requested.
Sincerely,
s/ Joshua A. Klein
JOSHUA A. KLEIN
Deputy Solicitor General
For

cc:

XAVIER BECERRA
Attorney General

Acting Solicitor General Jeffrey B. Wall
Counsel for Petitioners
Dror Ladin, Esq.
Counsel for Respondents Sierra Club and So. Borders Community Coalition

